HHS/OIG, Audit - "Review of Illinois Medicare Part D Contributions to the
Centers for Medicare & Medicaid Services for Full-Duals,"" (A-05-07-00009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Illinois Medicare Part D Contributions to the Centers for Medicare & Medicaid
Services for Full-Duals,"" (A-05-07-00009)
June 16, 2008
Complete
Text of Report is available in PDF format (443 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Contrary to Federal requirements, Illinois did not
contribute an estimated $2.1 million to CMS on behalf of the States
full-duals from January through October 2006.  Full-duals are beneficiaries
who are eligible for both full Medicaid benefits and Medicare.  Although
Medicare subsidizes the Part D prescription drug benefit for full-duals, each
State is required to make contributions.
The State made no contributions for 22 of the 300 sampled full-dual
beneficiary-months.  Although the States monthly Medicare Prescription Drug,
Improvement, and Modernization Act (MMA) file included full-dual information for
18 of the 22 beneficiary-months, CMS did not include the information in the MMA
return file that identifies the amount billed to the State.  For the remaining
four beneficiary-months, the State did not include full-dual information in its
MMA file, nor did CMS in its MMA return file.  We recommended that the State (1)
work with CMS to develop a process for reconciling the MMA file to the MMA
return file to ensure that required contributions are identified and made for
all full-duals and (2) identify and accurately report all full-duals to CMS in
the MMA file.  The State concurred with the recommendations.